^ i Ff

,

U’ & oj;

No.

OP
1

*y

Supreme Court, U.S.
FILED

FEB 1 2 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

michael carlton lowe

— PETITIONER

(Your Name)
vs.
MINNESOTA STATE, et al

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Minnesota Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)
1101 Linden Lane

(Address)
Faribault, Minnesota 55021
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
I. Did the lower courts infringe on relator's fundamental right of
substantive due procedd by failing to treat relatorsJwith fundam­
ental fairness by neglecting to apply procedural rights required
by justice to preclude forfeiture of estate of a private citizen
by an "executor de son tort"?
II...Did the lower courts deny relator- civilian due process while con­
ducting a process in a pre-judicial manner under the "Administra­
tive Procedures Act"?
III. Does relator's claim against the HENNEPIN COUNTY ADMINISTRATIVE
MUNICIPALITY for exceeding the scope of their authority create
a claim against respondents Public Hazard Bonds for "criminal
malpractice & barratry"?
IV. Did the lower courts neglect to ascertain the precise nature of
the government function involved, as well as the private interest
that has been affected by the government action without attempting
to procedurally deter relator from exercising his constitutional
right of seeking his liberty interest?
V. Did respondent's actions in the lower courts constitute an unlaw­
ful conversion of case no. 27-CR-07-022594 from equity to commer­
cial administrative law, or vexatious litigation for the benefit
of profit?
VI. Did the State Judiciary violate the Separation of Powers Clause
by adding, attaching any exceptions, procedures, or conditions
to Minn. Stat. § 589.01-Habeas Corpus Remedy in order to deny
relator's right to substantive due process?
VII. Did relator's petition for writ of habeas corpus satisfy § 589.01
requirements in plain unambiguous language where his claims subm­
itted alleged relator is illegally restraineddenied his liberty
interests, and that relator seeks immediate release or reduction
of his term of imprisonment?

LIST OF PARTIES

[X| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
All parties appear on the title page of this petition.
Petitioner respectfully prays for review of the decision of the
lower court's decision in a habeas corpus proceeding failing or
refusing to release a prisoner pursuant to Supreme Court Rule 36.
Petitioner directs this Court's attention to the Minnesota State
Appellate Court decision in lowe v. Minnesota State, case no. A1 91882; and companion case no. 27-CR-07-022594.
The Minnesota State Appellate Court's decision to deny review in
the above-cited cases failed to release prisoner, and to adhere to
its obligation to protect petitioner's God-given Unalienable Rights
to substantive civilian due process, which is protected by stateand national constitutions as well as internaional law, where "A
[government] defendant may be personally involved in a constitutio­
nal deprivation of constitutional rights in several ways: (1) direct
participation; (2) failure to remedy a wrong after learning about
it; (3) creation of a policy or custom under which unconstitutional
practices occur; or (4) gross negligence in managing subordinates
who caused the violations infringing upon fundamental rights of def­
endant. see Willaims, 781 F.2d at 323-24; and Gallegos v. Haggerty,

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A -Extension from the Supreme Court of the United States
to file writ of certiorari.
APPENDIX B -Minnesota Supreme Court order denying appeal from
judgment of the district court.
APPENDIX C-Minnesota Court of Appeals opinion in State v. Lowe,
2009 WL 437493 (8 pages);
APPENDIX D-Minnesota Court of Appeals opinion in Lowe v. Warden
Adm'r/Rush City Correctional Facility, 2011 WL 3557877;
APPENDIX E-Hennepin County District Court trial transcript pgs.
1074; 1 079; 1080.
APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
|X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _B___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______

1/15/20

[ ] A timely petition for rehearing was thereafter denied on the following date:
—1 /7/20--------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including___ _
(date) on
(date) in
Application No.___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
2

TABLE OF AUTHORITIES CITED

CASES

Lowe v. State, 2009 WL 437493......................................................
Lowe v. State, 2011 WL 3557877....................................................
Dinneen v. Tahash, 272 Minn. 7, 13, 136 N.W. 2d 847, 851 ..
State ex rel Bales v. Bailey, 106 Minn. 138, 139, 118 N.W.
676, 1 9 L.R.A. (N.S. ) 775...................................................................
Wojahn v. Halter, 229 Minn. 374, 379, 39 N.W. (2d) 545, 548
State ex rel bassett v. Tahash, 263 Minn. 447, 448, 1 1 6 N.W.
(2d) 564, 565.........................................................................................
Phelps Commonwealth Land Title Co., 537.N.W. 2d 271,
274 (Minn. 1 995)..................................................................................
State v. Koenig, 666 N.W. 2d 366, 373 (Minn. 2003).............
Beardsley v. Garcia, 753 N.W. 2d 927, 740 (Minn. 2008)...........
Haghight v. Russian Am Br.oad Co., 577N.W. 2d 927......................
State v. Clayton Bellanger, 2005 Minn. App. Unpub. LEXIS
42005..........................................................................................................

MifflATHK WM?
Minn.
Minn.
Minn.
Minn.
Minn.
Minn.

Stat.
Stat.
Stat.
Stat.
Stat.
Stat.

§
§
§
§
§
§

609.342, subd.1(e)(i) (2007)
609.223, subd.1 (2007)...........
609.713, subd.1 (2007)...........
563.02, subd.3 (2011).............
589.01, subd.4 (2019).............
609.1 35 (201 1 ).............................

PAGE NUMBER
7
7
8
8
8
8
9
9
9
9
10

4, 9 ., 11
6
6
6
7
9
10

1, Section 7 of the Minnesota Constitution.............. . 4, 9
Article 3, Section 1 of the Minnesota Constitution...........
■ 4i 95
Article 1, Section 8, Clause 18 of the U.S. Constitution. 4, 9

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The instant case relies on the provisions of Art.1, Sect.7 and
Art.3/ Sect.1 of the Minnesota State Constitution; and Art.1, Sect.
8, Clause 18 of the U.S. Constitution, both providing that the
Minnesota State Judiciary is precluded from adding the following
circumstances, claims, or reasons to deny state habeas corpus relief
pursuant to Minn. Stat. § 589.01-legislatively created:
A. that petitioner is attacking his conviction;
B. that petitioner is attempting to use the habeas corpus remedy
as an appeal;
C. that petitioner is attempting to collaterally attack the judgm­
ent of the court;
D. that petitioner is attempting to seek civil relief in a criminal
case;
E. that a petition seeking immediate relief from an otherwise void
judgment does not fit within the scope of habeas corpus relief;
F. that petitioner is attempting to seek habeas corpus relief from
the criminal conviction in a competent court.
Petitioner alleges that none of the above-cited circumstances from
A-F are contained in the legislative language of the Minn. Stat.
§ 589.01 state habeas corpus exceptions to the application, litig­
ation, or adjudication of § 589.01. Thus, they must not be recogn­
ized by law, nor used according to the legislature, to deny a pro­
perly filed petition for a state writ of habeas corpus seeking see­
king immediate release from a wrongful convictionrresuitingf.fromaa
lack of subject matter jurisdiction.
The state habeas corpus statute § 589.01 lists specifically the
following requirements in plain language compelling that the issues
claimed are: constitutional, and that the petitioner alleges that
he is illegally imprisoned, detained, denied his liberty interests;
and that the petitioner seeks immediate release or reduction of his
term of imprisonment; as alleged currently by this petitioner.
LEGAL CONSIDERATIONS:
Since the habeas corpus statute is unambiguous and language is clear,
the court in this case shall not have misconstrued or judicially
imposed on such a right of "Fundamental fairness" by denying the pet­
ition based on procedural grounds that were not legislatively created
within Minn. Stat. § 589.01 provisions; and any further constuction
should have been in conformity with the intent and language of the
statute itself. Thus, all restrictions from A-F listed on page 3, are
4

all applicable to petitioner's properly filed petition for writ of
habeas corpus.

5

STATEMENT OF THE CASE
Petitioner michael carlton: lowe appealed from the district munic­
ipal's denial of his second petition for habeas corpus relief with­
out consideration or an evidentiary hearing. Petitioner was convi­
cted in violation of Minn. Stat. § 609.342, subd.1(e)(i); § 609.223(1 ) ;
and § 609.713(1 ).in 2007, and the court of appeals affirmed the con­
viction on direct appeal. The Minnesota State Appellate Courts sub­
sequently denied several of petitioner's petitions for post-convi­
ction relief, and two earlier petitions for writ of habeas corpus
to adjoining counties pursuant to Minn. Stat. § 589.02. The Henne­
pin County District Municipal denied petitioner's third petition
without an evidentiary hearing finding that the claims raised were
of a "civil nature" and did not fit within the scope of habeas cor­
pus relief and therefore barred. The appellate court rejected the
appeal as an appeal taken from a nonappealable order
On August 15, 2007, a jury found petitioner guilty of first-degree
crim. sex. conduct, assault-3rd degree, and terroristic threats, he
was subsequently sentenced to 30 years in prison. Petitioner, at
the outset of the judicial proceedings, challenged that the court
lacked subject matter jurisdiction over himself because his deten­
tion stemmed from an arrest that was deemed illegal and without
exigent circumstances by the very same municpal during pre-trial
proceedings, the court stated "I am unaware of any motions for a
writ of habeas corpus after the first one. The first one I will
deny, the second one apparently that you applied, I will deny..."
see (T.1079)
THE DEFENDANT: On the grounds of? (T.1080)
THE COURT: that its my opinion... that I ruled your arrest was inev­
itable and that there was certainly a mountain of evidence againstt
you in the case. (T.1080)
—
THE DEFENDANT: at the time of my arrest the police failed to prod­
uce probable cause as well as a warrant and forcibly entered my
household, which you ruled was an illegal pretext arrest and a vio­
lation of my Fourth Amendment rights. You said that the arrest was
a violation of my Fourth Amendment rights but inevitable...(T1080)
6

THE COURT: They had probable cause. They absolutely, they were told
that you were the perpetrator by the victim so they had probable
cause to arrest you. The only thing I ruled is they should have
gotten a warrant because they had probable cause. (T.1080)
In ruling on the direct appeal of the conviction, the court did ...
not address the issue of whether the district municipal's ruling on
petitioner's motion to dismiss was unconstitutional and entitled
petitioner to immediate releasewhere two motions for writ of habeas
were filed during the pre-trial proceedings that were based on the
court's ruling the arrest was illegal, but denied., .see 2009 WL 437493. The court only addressed whether the district court: (1) abused
its discretion by denying his mistrial motion after the prosecutor
elicited inadmissible evidnce regarding a previous imprisonment and
(2) erred by imposing a double-upward departure in sentencing with­
out the jury finding that he is a danger to public safety. The pet­
itioner argued in his pro se brief argued that his conviction should
be reversed because his arrest was illegal. The district court did
not find that petitioner's arrest in his residence was supported by
exigent circumstances. As a result, jfehie court suppressed a gun (wh­
ich did not belong to petitioner), but refused to address the fact
that petitioner had been taken to HCMC upon his illegal arrest and
an illegal bllod draw performed without a warrant and a result of
the warrantless arrest, as supported by the record. The court dee­
med this argument has (no merit, although during Rasmussen proceed­
ings, officers testified to taking petitioner to HCMC upon arrest
and before transporting him to the Hennepin County JAil, for the
blood draw procedure.
Moreover, in 2011 WL 3557877, petitioner filed for writ of habeas
corpus relief in Chisago County arguing that he is entitled to imm­
ediate release from custody because his arrest violated his substa­
ntive right to be free from unreasonable searches and seizures.-The
district court dismissed petitioner's petition without prejudice
under Minn. Stat. §563.02, subd.3 (2010), concluding that his claim
was frivolous and has no arguable basis in lawtor... fact, although the
appellate court in 2009 WL 437493 found that the arrest was illegal,
7

as supported on the face of the record and is prima facie evidence
of a constitutional violation.
Petitioner's current petition for writ of habeas corpus relief makes
substantive claims that: (1) the trial court improperly ruled on his
motion to dismiss the complaint because his arrest was deemed to
have been made in violation of his Fourth Amendment rights and with­
out exigent circumstances or an arrest warrant; (2) that the court
lacked jurisdiction over him; (3) that his sentence was illegal and
unauthorized by law; and (4) that even though petitioner missed the
deadline to file for review of the court of appeals decision by 4
days, and without consideration of the 3 day mailing grace period
or that two holidays had elasped within the time to file petition
for review, fairness required subatantive review of the issues.
Morevover, because the only questions open to review on habeas corpus
after conviction of a crime are whether the court had jurisdiction
of the crime and the defendant (of the subject matter and the person);
whether the sentence was authorized by law; and whether the defendant
was denied fundamental constitutional rights.
The habeas, corpus scope has been enlarged in a sense that '^^conv­
entional notions of finality of litigation may not stand in the way
of review where an infringment of constitutional rights is alleged
and *** the principle
of res judicata is no longer applicable
to habeas corpus proceedings." see Dinneen v. Tahash, 272 Minn. 7,
13 136 N.W. 2d 847, 851. "The office of the writ of habeas corpus is
to afford the citizen a speedy and effective method of securing his
release when illegally restrained of his liberty." State ex rel. Bales
v. Bailey, 106 Minn. 138, 139, 118 N.W. 676, 19L.R.A. (N.S.) 775;
see also Wojahnv. Halter, 229 Minn. 374, 379, 39 N.W. (2d) 545, 548; and
State ex rel. Bassett v. Tahash, 263 Minn. 447, 448, 116 N.W. (2d) 564,
565.
8

REASONS FOR GRANTING THE PETITION
The legislature has established in petitioner's favor that: "Pres­
ent statutes relating to the pleadings, procedure, and the forms
thereofin civil actions shall be effective until modified or supe­
rseded by court rule. If a rule is promulgated pursuant to this s
section which is conflict with a statute, the statute shall thereaft­
er be of no force or effect,." Additionally, Minn. Stat. § 589.01, subd.
(4) is not named as a statute that would not remain in full force and
effect, notwithstanding matters of immediate release and matters of
sentencing procedure not authorized by law; or some fundamental right
has been violated.
The Minnesota State Court's decision to read into Minn. Stat. §589.
01 limitations, procedural bars, guidelines restrictions the state
legislature itself has not placed in the statute, or included in the
statute during enactment violates the Separation of Powers doctrine,
see Phelps v. Commonwealth Land Title Co., 537 N.W. 2d 271, 274 (Minn.
1995)
The Minnesota Judiciary State Courts do not have judicial discretion
to construe or interpret mandatory unambiguous penal statutes, or
the Minnesota Constitutions version of State Habeas Corpus,, ncr
the Legislature's version of State Habeas Corpus, see Minn. Stat.
§ 589.01; also Minn. Const. Art.1, Sect.7
The plain, clear, and unambiguous language and legislative intent of
the above-cited statutes leave no ambiguities to be cured; but if
any had existed, the legislature itself would be charged with modify­
ing, adding to, or changing the statutes in question, and the State
and Federal Constitutions would prohibit the state courts from const­
ruing, modifying, or changing a statute internally, externally, dire­
ctly or indirectly by utilization and enforcement of the Separation
of Powers Clause of the State and Federal Constitutions under Minn.
Const. Art.3, Sect.1, and U.S. Const. Art.1, Sect.8, Clause 18.
LEGAL NOTE: Even the state court's inherent judicial authority cannot
authorize it to modify, change,add to, or construe the above law, st­
atute, or State Constitution, despite the court's apparent desire to
to so. see Minn. Stat. §§ 645.16, 645.17(2); also State v. Koenig, 666
N.W. 2d 366, 373 (Minn. 2003); Beardsley v. Garcia, 753 N.W. 2d 735,
740 (Minn. 2008); Haghight v. Russian AM Broad Co • / 577 N.W. 2d 927,

929 (Minn. 1998)
Finally/ because the state court has committed the act of construing
the statutes improperly to be applicable to petitioner, such conduct
constitutes the most extreme violation of the Separation of Powers
Clause due to the application being a total transmutation of the sta­
tute's application intended by the legislature. This case presents ^
the question whether the Minnesota Supreme Court owes deference to
the lower court's interpretation of a statute that unambiguously con­
templates both criminal and civil enforcement?
Additionally, petitioner's argument is not lost on the claim of whet­
her the court had jurisdiction over him in regards to the statute and
its legislatively created intent. There is also the issue as to whet­
her the court's oral pronouncement of petitioner's sentence to 120
months probation caused the court to lose jurisdiction to impose a
longer sentence, or execute the sentence with imposition of a 360 mon­
th sentence of imprisonment by warrant of commit, and in the absence
of the required probation violation and revocation hearings?
Thus, this court should determine whether the rule of lenity required
the Minnesota Appellate Court to resolve the issue of ambiguity in
favor of the petitioner here?
see State v. Clayton Bellanger, 2005 Minn. App. Unpub. LEXIS 42005
LEXIS 4, Case No. A04-1790; also Lowe v. Roy, WL 3779342
In regards to the above sentencing dispute, in that case, the court
used the exact unauthorized reasons to deny habeas relief addressed
here on page 3, holding that petitioner's claim that the court illeg­
ally imposed an executed sentence after it stayed a stayed sentence
and had lost jurisdiction to declare imposition of an executed sent­
ence without adhereing to the requirements of a revocation hearing,
see State v. Austin, 295 N.W. 2d 246,__249-50 (Minn. 1980); .theucourF,
held the claim was without "substantive merit" and that petitioner's
habeas claims constituted an improper collateral attack on the under­
lying conviction, that could not be remdied in a habeas corpus proce­
eding. Alternatively, the court held that the "judge simply misspoke"
when he used the word probation' instead of supervised release.
Again, the judiciary has read into Minn.Stat. § 609.135-describing
probation as something that may ior may not be imposed as a condition
10

of a stayed sentence-suggesting that probation is not a part of the
sentence, meaning that if the judge stated that petitioner would be
placed on 120.months probation, the judiciary did not have the judic­
ial discretion to interpret the judicial or legislative intent in
regards to the statute. Also, the clear language in Minn. Stat. §
609.135, subd.1(a) states "when a district court stays imposition or
execution of a sentence, the court may order intermediate sanctions
'without placing the defendant on probation, the unambiguity of the
language in the statute discerns that the court acted in violation of
the Separation of Powers Clause by construing, modifying, adding to,
or changing the statutes interpretation to circumvent the fact that,
if the judge had misspoke, there was no need to specify the defendant
shall be placed on probation for a specified number of months; and
therefore changing the applications of the statute in question.
Nevertheless, the appellate courts rendered a decision, which did not
adhere to the legislative interpretation of the statute, and instead
gave its own judicial interpretation reasoning that "the judge simply
misspoke'when he used the word probation instead of supervised release! see Lowe, 2013 WL 3779342, at *2 (exclaiming that Lowe's warrant
reflected an executed sentence of 360 months, and thus^creating a
material variance between the oral sentence to 120 months probation
and executed sentence by warrant of commitment to 360 months imprison­
ment .)
Therefore, because petitioner was not challenging the validity of his
sentence, rather that the court had lost jurisdiction to impose an
executed sentence by warrant of commitment, after the term in which
the orally pronounced sentence had expired, and the court had, accor­
ding to the record, sentenced petitioner to a 120 month probated sen­
tence in accirdance to Minn. Stat. §§ 609.135, and 609.135, subd.1(a)
(1 ) (2007). Petitioner is in "fact entitled to immediate release—under
the state habeas corpus statute § 589.01.
CulxCLO S IQiv

The court in Dinneen v. Tahash, (seepg.6), has declared that res jud­
icata is no longer applicable to habeas corpus proceeding, and that
the state habeas corpus can be used as a collatera; remedy pursuant
to Minn. Stat. § 589.01 for Constitutional and Federal issues. The
Minnesota Legislature has created and preserved a mechanism to ensure
protections against finalization of litigation and adjudication of
constitutional and federal law rights, immunities, privileges & libe­
rties in situations where Minn. Stat. § 589.01 et seq. has become un­
available, ineffective, or inadequate aS a collateral reviOw^theri
Minn. Stat. § 589.01 may be used in its highly expanded form, see
Minnesota Sessions Law Chpter 336-H.F. no. 628 (coded for 1967), post­
conviction remedy availability, conditions, subd.2. see Kelsy v. Statr, 283 N.W. 2d 892, 894; Johnson v. State, 801 N.W. 2d 173, 801 N.W.
2d at 176 (2011)
CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

j^ucJrvau

Q CfinjrtSvi«\

mL
Date:
11

